Welcome to Cal Coast. We're glad you're here.

Credit Card Rates
Rates accurate as of 7/18/2016 and may change after this date.1
At California Coast Credit Union, our Platinum and Platinum Choice Rewards credit cards let you enjoy your spending power, take
advantage of our low rates and pay off your high interest cards at the same time! With our Platinum and Platinum Choice Rewards
cards, anything is possible!

Platinum and Platinum Choice Rewards Credit Card Disclosure Summary
Interest Rates and Interest Charges
2.88% Introductory APR until 6/30/18. After that, 9.88% to 15.88% Platinum Credit Card2
Actual rate determined when you open your account, based on your creditworthiness. After that, the APR
will be non-variable.
Annual Percentage
Rate (APR) for
Purchases and
Balance Transfers

10.88% to 16.88% Platinum Choice Rewards Credit Card
13.99% Platinum Student Credit Card
15.99% Platinum Secured Credit Card
Actual rate determined when you open your account, based on your creditworthiness. After that,
the APR will be non-variable.
9.88% to 15.88% Platinum Credit Card

Annual Percentage
Rate (APR) for Cash
Advances

Paying Interest

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

10.88% to 16.88% Platinum Choice Rewards Credit Card
13.99% Platinum Student Credit Card
15.99% Platinum Secured Credit Card
Actual rate determined when you open your account, based on your creditworthiness. After that,
the APR will be non-variable.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
None Platinum, Platinum Choice Rewards and Platinum Student Credit Cards

Annual Fee

$20 Platinum Secured Credit Card

Transaction Fees

Balance
Transfer

None Platinum, Platinum Secured, Platinum Student Credit Cards
3% of Advance ($5 Minimum and No Maximum) Platinum Choice Rewards Credit Card

Cash
Advance

All Credit Cards

Foreign
Transaction

3% of Advance ($5 Minimum and No Maximum)
All Credit Cards
1% International Service Assessment fee for Multiple Currency Conversion Rate adjustments. 0.8% Single
Currency Conversion Rate adjustment fee, if there is no currency conversion.
Penalty Fees

Late
Payment

$10 (if 10 or more days late)

Other Fees

Card
Replacement

$5

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your credit card
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
1

All information is accurate as of July 18, 2016 and is subject to change without notice. For current rates and terms, please contact California
Coast Credit Union at (858) 495-1600 or (877) 495-1600. All loans subject to approval.
2

Introductory rate valid 07/01/16 through 06/30/18. 2.88% promotional offer cannot be used to pay off any CCCU loan or be made payable
to cash, yourself, any joint owner(s) or co-maker(s). Introductory rate does not apply to Platinum Choice Rewards, Platinum Secured and
Platinum Student Credit Cards.

Call Us (877) 495-1600
© California Coast Credit Union
Federally Insured By NCUA

